   Office of Inspector General
   Report of Audit




Region 6's Oversight of Arkansas
     Air Enforcement Data
       E1GAF7-06-0014-7100295
         September 26, 1997
Inspector General Division   Central Audit Division
 Conducting the Audit        Dallas, Texas

Region Covered               Region 6

Program Offices Involved     Compliance Assurance and
                             Enforcement Division

                             Multimedia Planning and
                             Permitting Division
                                       September 26, 1997

MEMORANDUM

SUBJECT:       Region 6's Oversight of Arkansas
                Air Enforcement Data
               Audit Report Number E1GAF7-06-0014-7100295

FROM:          Bennie S. Salem
               Divisional Inspector General

TO:            Jerry Clifford
               Acting Regional Administrator

        Attached is our audit report on Region 6's Oversight of Arkansas Air Enforcement Data.
The overall objectives of this audit were to determine whether the Arkansas Department of
Pollution Control and Ecology: (1) identified significant violators in accordance with the
Environmental Protection Agency’s (EPA) timely and appropriate enforcement guidance, (2)
reported significant violators to EPA, and (3) performed inspections that were sufficient to
determine if a facility violated the Clean Air Act. This report contains findings and
recommendations that are important to both EPA and Arkansas.

       This report contains findings that describe deficiencies the Office of Inspector General
(OIG) has identified and corrective actions OIG recommends. This report represents the opinion
of OIG. Final determinations on matters in this report will be made by EPA managers in
accordance with established EPA audit resolution procedures. Accordingly, the findings
contained in this audit report do not necessarily represent the final EPA position.

Action Required

         In accordance with EPA Order 2750, you, as the action official, are required to provide us
within 90 days, a report on the actions the Agency plans or has taken as a result of our
recommendations. Your responses to the position papers and the draft report were sufficient to
satisfy this requirement. Consequently, we are closing this report upon issuance of the report.

        If you wish to discuss this report, please contact me at (913) 551-7831 or Dave Boyce,
Audit Manager in our Dallas office, at (214) 665-6620. Please refer to the report number on all
related correspondence.

Attachment
THIS PAGE INTENTIONALLY LEFT BLANK.
                                             Region 6's Oversight of Arkansas
                                                        Air Enforcement Data



             EXECUTIVE SUMMARY

PURPOSE           The purpose of this audit was to determine whether the Arkansas
                  Department of Pollution Control and Ecology (Arkansas):

                         <       Identified significant violators in accordance with
                                 the Environmental Protection Agency’s (EPA)
                                 timely and appropriate enforcement guidance,

                         <       Reported significant violators to EPA, and

                         <       Performed inspections that were sufficient to
                                 determine if a facility violated the Clean Air Act
                                 (CAA).




BACKGROUND        The Clean Air Act, as amended in 1990, provides EPA authority to
                  set and enforce national standards to protect human health and the
                  environment from emissions that pollute the air. CAA lists 188
                  toxic air pollutants that must be reduced. CAA separately
                  regulates six of the more serious air pollutants — ground level
                  ozone, particulate matter, carbon monoxide, sulfur dioxide, lead,
                  and nitrogen dioxide. These six criteria pollutants are emitted in
                  large quantities by a variety of sources. EPA sets national
                  standards for each of these criteria pollutants, and the states must
                  take action to ensure facilities meet EPA standards.

                  At the federal level, the air enforcement program is carried out
                  largely by the regions. The regions are expected to perform
                  inspections and take action against significant violators found
                  through inspections or other means. The regions can also delegate
                  portions of their air enforcement responsibility to the states and
                  often rely on the states to conduct inspections and take
                  enforcement actions.


                             i               Report No. E1GAF7-06-0014-7100295
                                             Region 6's Oversight of Arkansas
                                                        Air Enforcement Data

                   Region 6 negotiated a grant agreement and a Memorandum of
                   Understanding for Enforcement with Arkansas. Region 6 uses
                   these agreements as the basis for evaluating the State’s
                   performance under the grant. The agreements encompass activities
                   such as inspections, monitoring, permitting, and enforcement,
                   which include identifying and reporting significant violators in
                   EPA's national database known as the Aerometric Information
                   Retrieval System Facility Subsystem (AFS).



RESULTS IN BRIEF   Although the Arkansas air enforcement program provided for an
                   extensive inspection program, the Region 6 Compliance Assurance
                   and Enforcement Division and Arkansas need to better identify and
                   report significant violators. Due to wording in the guidance,
                   Arkansas applied a different interpretation to the definition of
                   significant violator than intended by EPA. Region 6 enforcement
                   did not adequately use information provided by Arkansas to
                   identify significant violators. Miscommunication between the
                   Region and Arkansas led to significant violators not being entered
                   into AFS. Without proper identification and reporting of
                   significant violator information, Region 6 could not adequately
                   monitor the progress of Arkansas in returning facilities to
                   compliance. Also, information reported to EPA’s Office of
                   Enforcement and Compliance Assurance, Congress, and the public
                   was not accurate.

                   Arkansas and Region 6 need to take actions to ensure significant
                   violators are returned to compliance timely. Arkansas did not
                   always set milestone dates for facilities to come into compliance
                   and did not always set stipulated penalties. Region 6 did not
                   elevate any enforcement actions. As a result, companies continued
                   to violate permit limits by emitting pollutants such as volatile
                   organic compounds, particulate matter, and methylene chloride.



RECOMMENDATIONS    We recommend that the Acting Region 6 Administrator require the
                   Region 6 Compliance Assurance and Enforcement Division to:



                             ii              Report No. E1GAF7-06-0014-7100295
                                                  Region 6's Oversight of Arkansas
                                                             Air Enforcement Data

                           1.         Develop a process with Arkansas to ensure that
                                      significant violators are accurately identified and
                                      reported,

                           2.         Verify that significant violator information in AFS
                                      is complete, and

                           3.         Perform more effective oversight of significant
                                      violators to ensure that Arkansas takes timely and
                                      appropriate actions that result in facilities returning
                                      to compliance. In instances where Arkansas does
                                      not act timely, the Region should consider taking its
                                      own enforcement actions.



REGION 6 RESPONSE   Region 6 generally agreed with our findings and recommendations
                    and proposed taking the following corrective actions regarding
                    significant violators:

                           <          Continue to implement the Memorandum of
                                      Understanding, dated January 29, 1997, between the
                                      Region 6 Multimedia Planning and Permitting
                                      Division and the Compliance Assurance and
                                      Enforcement Division to better coordinate
                                      significant violator information and ensure the
                                      accuracy of information in AFS;

                           <          Assist Arkansas with significant violator
                                      determination and verify that significant violator
                                      data is accurately reflected in AFS; and

                           <          Ensure through effective oversight that Arkansas
                                      takes timely and appropriate enforcement actions
                                      regarding significant violators and consider taking a
                                      federal enforcement action in the instance where
                                      Arkansas’ action does not follow the prescribed
                                      guidance.

                    Region 6 also provided corrective actions proposed by Arkansas.


                                iii               Report No. E1GAF7-06-0014-7100295
                                                Region 6's Oversight of Arkansas
                                                           Air Enforcement Data




ARKANSAS RESPONSE   Arkansas’ response to the draft report expressed concerns
                    regarding the tonal quality of the report and did not discuss specific
                    findings and recommendations. However, Arkansas’ response to
                    position papers addressed all findings and recommendations,
                    including detailed summaries of the facilities reviewed. In that
                    response, Arkansas generally agreed with the findings and
                    provided proposed corrective actions. We incorporated their
                    comments, as appropriate, in the draft and final reports.




OIG EVALUATION      We agree with the corrective actions proposed by the Region and
                    Arkansas. In response to Arkansas’ concerns regarding the tone of
                    the draft report, we made revisions to the final report, as the
                    Region and Arkansas did respond very positively to our concerns
                    during our fieldwork and to the findings in the position papers.




                              iv                Report No. E1GAF7-06-0014-7100295
                                                                                   Region 6's Oversight of Arkansas
                                                                                              Air Enforcement Data




                            TABLE OF CONTENTS

                                                                                                                      Page
EXECUTIVE SUMMARY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . i

CHAPTER 1 INTRODUCTION
               PURPOSE . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
               BACKGROUND . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
               SCOPE AND METHODOLOGY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3
               PRIOR AUDIT COVERAGE . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4

CHAPTER 2 ARKANSAS AND THE REGION COULD BETTER IDENTIFY AND
           REPORT SIGNIFICANT VIOLATORS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5
               ARKANSAS MAINTAINED AN EXTENSIVE INSPECTION
                PROGRAM . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6
               ARKANSAS DID NOT ACCURATELY APPLY THE
                DEFINITION OF SIGNIFICANT VIOLATORS . . . . . . . . . . . . . . . . . 7
               REGION 6 ENFORCEMENT DID NOT ADEQUATELY USE
                PROVIDED INFORMATION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 8
               MISCOMMUNICATIONS PREVENTED SIGNIFICANT
               VIOLATOR INPUT INTO AFS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 10
               CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11
               RECOMMENDATIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11
               EPA RESPONSE . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 12
               OIG EVALUATION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 12

CHAPTER 3 ENFORCEMENT ACTIONS AGAINST SIGNIFICANT VIOLATORS
           NEED IMPROVEMENT . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 13
              ARKANSAS NEEDED TO TAKE TIMELY ENFORCEMENT
                ACTIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 14
              ARKANSAS NEEDED TO SET MILESTONE DATES AND
                STIPULATED PENALTIES . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 14
              REGION 6 DID NOT ELEVATE ANY ENFORCEMENT
                ACTIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 15
              CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 18


                                                                                  Report No. E1GAF7-06-0014-7100295
                                                                                  Region 6's Oversight of Arkansas
                                                                                             Air Enforcement Data


                           RECOMMENDATIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 18
                           EPA RESPONSE . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 19
                           OIG EVALUATION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 19


APPENDICES
 APPENDIX 1 - REGION 6 RESPONSE . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 21
 APPENDIX 2 - ARKANSAS RESPONSE . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 27
 APPENDIX 3 - ABBREVIATIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 47
 APPENDIX 4 - DISTRIBUTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 48




                                                                                  Report No. E1GAF7-06-0014-7100295
                                             Region 6's Oversight of Arkansas
                                                        Air Enforcement Data


             CHAPTER 1
                INTRODUCTION



PURPOSE      The purpose of this audit was to determine whether the Arkansas
             Department of Pollution Control and Ecology (Arkansas):

                    <       Identified significant violators in accordance with
                            EPA’s timely and appropriate enforcement
                            guidance,

                    <       Reported significant violators to the Environmental
                            Protection Agency (EPA), and

                    <       Performed inspections that were sufficient to
                            determine if a facility violated the Clean Air Act
                            (CAA).

             This audit was conducted as part of a nationwide audit of air
             enforcement data.



BACKGROUND   The CAA, as amended in 1990, provides EPA authority to set and
             enforce national standards to protect human health and the
             environment from emissions that pollute the air. CAA lists 188
             toxic air pollutants that must be reduced. CAA separately
             regulates six of the more serious air pollutants — ground level
             ozone, particulate matter, carbon monoxide, sulfur dioxide, lead,
             and nitrogen dioxide. These six criteria pollutants are emitted in
             large quantities by a variety of sources. EPA sets national
             standards for each of these criteria pollutants, and the states must
             take action to ensure facilities meet EPA standards.

             At the federal level, the air enforcement program is carried out
             largely by the regions. The regions are expected to perform
             inspections and take action against significant violators found

                           1                Report No. E1GAF7-06-0014-7100295
                               Region 6's Oversight of Arkansas
                                          Air Enforcement Data

through inspections or other means. The regions can also delegate
portions of their air enforcement responsibility to the states and
often rely on the states to conduct inspections and take
enforcement actions.

Section 105 of the CAA provided the authority for federal grants to
help state and local agencies prevent and control air pollution.
EPA awards section 105 grant money so that states can operate
their air programs in accordance with their grant agreements. In
fiscal 1996, EPA awarded Arkansas $821,645 under the section
105 grant.

Region 6 negotiated a grant agreement, and a Memorandum of
Understanding (MOU) for Enforcement with Arkansas. Region 6
uses these agreements as the basis for evaluating the State’s
performance under the grant. The agreements encompass activities
such as inspections, monitoring, permitting, and enforcement,
which include identifying and reporting significant violators in the
Agency's database known as the Aerometric Information Retrieval
System Facility Subsystem (AFS).

The Region 6 Compliance Assurance and Enforcement Division
(enforcement) is responsible for monitoring state enforcement
activities, and the Multimedia Planning and Permitting Division
(permitting) is responsible for verifying the accuracy of AFS. As a
result of our previous audit entitled Region 6's Enforcement and
Compliance Assurance Program (E1GAF5-06-0056-6100309) and
dated September 26, 1996, the enforcement and permitting
divisions entered into an MOU on January 29, 1997, to better
define their responsibilities. The MOU requires that the Region 6
AFS compliance manager provide monthly AFS reports to the
enforcement division and to the states for comments related to the
accuracy of the data, including significant violator flagging.
Responses to the AFS report are due by the end of the month. As
of the date of our review, implementation of this MOU was still in
process.




              2                Report No. E1GAF7-06-0014-7100295
                                               Region 6's Oversight of Arkansas
                                                          Air Enforcement Data


SCOPE AND     We performed our audit in accordance with the Government
METHODOLOGY   Auditing Standards (1994 revision) issued by the Comptroller
              General of the United States as they apply to program audits. Our
              review included tests of the program records and other auditing
              procedures we considered necessary. Our audit focused on state
              inspections of major facilities during fiscal 1996. We conducted
              our fieldwork from January to June 1997.

              To obtain an understanding of applicable laws and policies, we
              reviewed the CAA, the Code of Federal Regulations, EPA’s
              Timely and Appropriate Enforcement Response to Significant Air
              Pollution Violators, the CAA Compliance/Enforcement Policy
              Manual, EPA’s Compliance Monitoring Strategy, and the Arkansas
              State Code. We also reviewed the fiscal 1996 section 105 grant
              awarded to Arkansas under the CAA, and EPA’s midyear reviews
              of the State’s performance. During this audit, we used various
              printouts from AFS to obtain information about the inspections
              performed.

              To evaluate Arkansas’ enforcement of the CAA requirements, we
              reviewed the permit and compliance files maintained by Arkansas.
              These files contained items such as inspection reports, letters of
              violations, permits, permit applications, test results, emission
              monitoring records, and correspondence.

              We conducted interviews at Arkansas and Region 6's Compliance
              Assurance and Enforcement Division and Multi-Media Planning
              and Permitting Division. We obtained listings from Region 6 of
              major sources and inspections performed for fiscal 1996.

              To identify significant violators, we first obtained and reviewed a
              list of all Arkansas facilities contained in AFS. This list contained
              343 major facilities. We judgmentally selected a sample of 23
              facilities out of 343, or 6 percent of listed major facilities. We
              selected our sample based on a review of AFS reports and the
              monthly Enforcement Activities reports dated October 1, 1996, and
              March 10, 1997, provided by Arkansas. We reviewed the files for
              the selected facilities to identify any that were significant violators.
              During our analyses, we reviewed documents prior to fiscal 1996


                             3                 Report No. E1GAF7-06-0014-7100295
                                             Region 6's Oversight of Arkansas
                                                        Air Enforcement Data

              to obtain historical information, such as how long problems
              persisted and the results of previous inspections.

              Our audit disclosed several areas needing improvements that are
              discussed in Chapters 2 and 3. We provided position papers of our
              draft findings to the Region 6 enforcement office in June 1997.
              The Region forwarded a copy of the position papers to Arkansas
              for comments.

              We reviewed management controls and procedures specifically
              related to our objectives, but did not validate the data associated
              with the input and processing of information into AFS or any other
              automated records system. Because of the inherent limitations in
              any system of internal accounting control, errors or irregularities
              may occur and not be detected. Except for the issues discussed in
              this report, nothing came to our attention which would cause us to
              believe the State’s procedures were not adequate for our purposes.



PRIOR AUDIT   On February 14, 1997, the Office of Inspector General (OIG)
COVERAGE      issued report number E1KAF6-03-0082-710015 entitled Validation
              of Air Enforcement Data Reported to EPA by Pennsylvania. In
              this report, OIG reported that Pennsylvania did not report all
              significant violators to EPA and did not take aggressive
              enforcement action to bring all violating facilities into compliance.

              On September 26, 1996, OIG issued report number E1GAF5-06-
              0056-6100309 entitled Region 6's Enforcement and Compliance
              Assurance Program. In this report, OIG reported that neither
              Texas nor Louisiana formally computed economic benefit when
              assessing fines; Region 6 and Texas were not timely in completing
              enforcement actions against significant violators for any of the
              cases reviewed; Region 6 and Louisiana did not adequately
              publicize their enforcement actions; Region 6 air enforcement data
              in AFS was incomplete, inconsistent, and untimely; and Region 6
              did not work with states to develop and maintain active compliance
              assistance programs.




                            4                Report No. E1GAF7-06-0014-7100295
                                              Region 6's Oversight of Arkansas
                                                         Air Enforcement Data


              CHAPTER 2
ARKANSAS AND THE REGION COULD BETTER IDENTIFY
      AND REPORT SIGNIFICANT VIOLATORS


              Although the Arkansas air enforcement program provided for an
              extensive inspection program, Region 6 enforcement and Arkansas
              need to better identify and report significant violators. Arkansas
              applied a different definition of significant violators. Region 6
              enforcement did not adequately use provided information to
              identify significant violators. Miscommunication between the
              Region and Arkansas led to significant violators not being entered
              into AFS. Without proper identification and reporting of
              significant violator information, Region 6 could not adequately
              monitor the progress of the cases to ensure return to compliance.
              Also, information reported to EPA’s Office of Enforcement and
              Compliance Assurance, Congress, and the public was not accurate.

              EPA’s February 7, 1992, guidance entitled Timely and Appropriate
              Enforcement Response to Significant Air Pollution Violators
              (guidance) provides that the finding agency shall determine
              whether or not a facility is a significant violator, and EPA shall add
              the newly designated significant violator to the significant violator
              list. This significant violator information is to be reported in AFS.
              The fiscal 1996 section 105 grant required Arkansas to identify and
              report significant violators in accordance with EPA’s guidance.
              Region 6 is currently working with its states to have the states
              input the significant violators directly into AFS.

              The guidance defines a significant violator as any major stationary
              source of air pollution that violates emission, monitoring, or
              substantial procedural requirements; is a repeat or chronic violator;
              violates federal or state administrative or judicial orders; or
              constructs or performs major modifications without a permit. This
              guidance requires states to report significant violators to EPA
              within 1 month of the violation, and to maintain the facility on
              EPA’s significant violator list until it achieves compliance. After
              the violation is reported, the state and EPA should monitor the

                            5                 Report No. E1GAF7-06-0014-7100295
                                                    Region 6's Oversight of Arkansas
                                                               Air Enforcement Data

                     source until it achieves compliance. The state and EPA should
                     determine an appropriate time schedule for achieving compliance
                     and assessing a penalty, if necessary. The state and EPA conduct
                     teleconferences to discuss new and existing significant violators. If
                     EPA is dissatisfied with a state's enforcement action, EPA has the
                     authority to override the state and assume the lead in resolving the
                     violation.

                     Arkansas provides Region 6 enforcement with a monthly report
                     (Enforcement Activities Report) that identifies significant violators
                     and facilities which might be labeled as significant violators based
                     on state inspections. The enforcement office reviews the report
                     and tracks significant violators.



ARKANSAS             According to an AFS report, Arkansas’ inspection program
MAINTAINED AN        provided more coverage of major sources than most other states.
EXTENSIVE            Arkansas conducted detailed inspections of each major facility at
INSPECTION PROGRAM   least once each year to ensure it met federal and state regulations.
                     Arkansas also performed complaint inspections, as needed. Most
                     states did not inspect each major facility each year. Arkansas’
                     annual inspections met EPA’s definition of Level 2 inspections,
                     and the inspection reports were well documented. Arkansas’
                     inspections provided support for enforcement actions and were a
                     viable method for determining whether a facility was violating the
                     CAA.

                     States can perform five different levels of inspections at air
                     pollution facilities. Level 0, commonly called a “drive by,” is the
                     most basic inspection. To adequately evaluate a facility’s
                     compliance with the CAA, EPA required each state to perform at
                     least a Level 2 inspection at major facilities. A Level 2 inspection
                     includes:

                            <       Reviewing facility records to determine compliance
                                    with applicable regulations and permits,

                            <       Taking and analyzing samples when required,



                                   6                Report No. E1GAF7-06-0014-7100295
                                                     Region 6's Oversight of Arkansas
                                                                Air Enforcement Data

                            <       Recording process rates and control equipment
                                    performance parameters, and

                            <       Performing visual observations of emissions.




ARKANSAS DID NOT    For fiscal 1996, Arkansas only reported 2 significant violators in
ACCURATELY APPLY    AFS for their 343 major sources. Arkansas and Region 6 officials
THE DEFINITION OF   agreed that all significant violators were not correctly identified as
SIGNIFICANT         such because of definition differences. Region 6 held meetings
VIOLATORS           and conference calls with Arkansas officials, since the initiation of
                    our audit, to discuss the definition of significant violators. As a
                    result, Arkansas identified 14 additional significant violators and
                    input them into AFS. Further, based on our review of 23 facilities,
                    we identified 10 additional significant violators.

                    While the severity of the violations varied, all 24 additional
                    facilities met the definition for significant violators. Furthermore,
                    some of these facilities violated the CAA for years without the
                    State or EPA taking strong enforcement action. The 10 facilities
                    that we identified included facilities that repeatedly constructed
                    and operated unpermitted equipment that emitted pollution,
                    repeatedly exceeded permit limits, operated without a prevention
                    of significant deterioration of air quality (PSD) permit, violated a
                    State Administrative Order, failed stack tests, failed to install
                    control equipment, and repeatedly failed to control fugitive
                    emissions.

                    For example, one facility added unpermitted sources on several
                    occasions over the past 3 years and was 15 months late performing
                    a stack test. In a letter dated July 29, 1994, Arkansas indicated that
                    during the course of issuing the original permit, it learned that the
                    facility was in the process or had already installed and was
                    operating equipment not included in the application for a permit.
                    (However, Arkansas issued the permit despite its findings.) The
                    letter advised the facility that it was in direct violation of its state
                    implementation plan and would be subject to possible enforcement
                    actions. Arkansas went on to explain in this letter that the most


                                   7                 Report No. E1GAF7-06-0014-7100295
                                                     Region 6's Oversight of Arkansas
                                                                Air Enforcement Data

                     recent submittal for a permit revision was inadequate and indicated
                     that the facility had once again commenced construction in clear
                     violation of the regulations. Arkansas issued a revised permit on
                     November 18, 1994. Arkansas inspectors identified additional
                     unpermitted sources in inspections conducted on August 23, 1995,
                     and June 14, 1996. Because the facility repeatedly constructed new
                     equipment without a permit and repeatedly failed to perform stack
                     testing requirements, this facility should have been identified as a
                     significant violator.

                     Other examples included facilities which operated for long periods
                     of time without permits and in noncompliance with their permits.
                     Arkansas considered one facility as out of compliance since 1991
                     for not having a PSD permit. Another facility has been considered
                     out of compliance with its permit since February 23, 1994. This
                     facility has continued to operate with unpermitted sources and
                     exceeded its permit limits for volatile organic compounds.

                     Region 6 enforcement stated in its response to our position papers,
                     that Region 6 discovered that some problems existed with
                     Arkansas in both interpreting the definition of a significant violator
                     and reporting significant violators in the AFS database. However,
                     through numerous discussions, the Region believed that both
                     problem areas have now been resolved. Arkansas agreed that nine
                     of the significant violators that we identified were significant
                     violators. For the tenth significant violator that we identified,
                     Region 6 and Arkansas responded that the violations were resolved
                     in fiscal 1997 when a PSD permit was issued and a subsequent
                     inspection in March 1997 disclosed no violations.




REGION 6             Because Region 6 enforcement did not make significant violator
ENFORCEMENT DID      reporting a priority, it did not verify whether Arkansas had
NOT ADEQUATELY USE   identified all significant violators and did not utilize information
PROVIDED             provided by the State concerning facilities’ noncompliance. Case
INFORMATION          narratives in monthly reports usually provided enough information
                     for Region 6 enforcement officials to question whether additional
                     facilities should be classified as significant violators. Of the 14


                                   8                 Report No. E1GAF7-06-0014-7100295
                                Region 6's Oversight of Arkansas
                                           Air Enforcement Data

significant violators added by Arkansas in March 1997, 10
facilities were not identified as significant violators in the monthly
Enforcement Activities Report dated October 1, 1996, but the
report generally contained sufficient information about the
facilities to draw that conclusion.

For the 10 additional significant violators identified by OIG, the
case narrative also usually provided enough information for Region
6 enforcement officials to question whether the facilities should be
significant violators. For example, for 1 of the 10 facilities, the
Arkansas monthly Enforcement Activities Report dated October 1,
1996, provided information that the past 2 inspections detected that
the facility had unpermitted sources, exceeded permit limits, and
had reporting violations. By definition, unpermitted sources and
emission violations are significant violations. However, Region 6
and Arkansas did not identify the facility as a significant violator.

Arkansas did report 4 of the additional 14 facilities as significant
violators to Region 6 enforcement personnel in the monthly
Enforcement Activities Report dated October 1, 1996. Further,
according to Region 6 enforcement personnel, enforcement was
monitoring these four facilities as significant violators. However,
these significant violations were not reported in AFS prior to
March 1997 because Region 6 enforcement officials did not check
to see if the facilities listed by Arkansas in their Enforcement
Activities Reports were in AFS as significant violators.

It is too early to determine whether the MOU entered into in
response to our previous audit will correct the reporting problems
identified above. As of the date of our review, implementation of
this MOU was still in process. Region 6 had not received
comments from Arkansas related to the accuracy of the AFS
reports. However, the MOU does provide a good basis for
coordination of significant violator information and, if properly
implemented, should correct problems related to differences
between the monthly Enforcement Activities Reports provided by
Arkansas and information in AFS. Better oversight will still be
needed by the Region 6 enforcement office to assure that Arkansas
correctly applies the definition of significant violators.



               9                Report No. E1GAF7-06-0014-7100295
                                                      Region 6's Oversight of Arkansas
                                                                 Air Enforcement Data

                      In response to the position papers, Region 6 enforcement stated
                      that during the monthly significant violator conference calls, many
                      facilities and their potential violations were discussed. Although
                      some of those facilities that were determined to be significant
                      violators were not adequately reflected in the AFS database (and
                      Region 6 is in the process of resolving this issue with Arkansas),
                      they were being tracked by Arkansas and Region 6 as significant
                      violators.



MISCOMMUNICATIONS     Region 6 enforcement officials assumed that Arkansas officials
PREVENTED             were identifying significant violators in AFS. However, Arkansas
SIGNIFICANT           officials told us that they did not have the capability to input a
VIOLATOR INPUT INTO   significant violator flag into AFS until March 24, 1997. They
AFS                   provided a letter dated March 3, 1997, from the Region 6 AFS
                      Coordinator to all Region 6 states to provide this access and stated
                      that this access was provided effective March 24, 1997.

                      Region 6 officials contend that, although state access to this field is
                      new, states did have the capability to input significant violator
                      designation in a day zero field. Arkansas officials stated that they
                      did not have access to this field either. Arkansas sent a letter to
                      Region 6 on April 21, 1997, to clarify who will have the
                      responsibility to flag significant violators in AFS and requested
                      that Region 6 flag the significant violators. Region 6 responded to
                      Arkansas’ letter on June 26, 1997, that the “Day Zero” action has
                      been required as minimally reportable since fiscal 1995. Region 6
                      also responded, “Records concerning the identification and
                      reporting of subsequent activity of SV’s are minimally reportable
                      data elements and therefore should be reported by the State.”




CONCLUSION            Arkansas added 14 significant violators to AFS, as a result of our
                      audit, and we identified 10 additional facilities that should have


                                    10                Report No. E1GAF7-06-0014-7100295
                                                  Region 6's Oversight of Arkansas
                                                             Air Enforcement Data

                  been identified as significant violators for fiscal 1996. These
                  additional 24 significant violators represent a significant increase
                  from the two significant violators that were reported in AFS for
                  Arkansas in fiscal 1996 prior to the initiation of our audit. Region
                  6 must assure that significant violators are correctly identified and
                  reported in AFS. EPA needs accurate significant violator
                  information so that it can provide adequate monitoring of state
                  activities and can assure that information reported to Congress and
                  the public is accurate.



RECOMMENDATIONS   We recommend that the Acting Region 6 Administrator require
                  Region 6 enforcement to:


                         1.      Review the narratives of the monthly Enforcement
                                 Activities Reports to determine whether other
                                 facilities should be classified as significant
                                 violators;

                         2.      Implement the MOU dated January 29, 1997,
                                 between the Multimedia Planning and Permitting
                                 Division and the Compliance Assurance and
                                 Enforcement Division;

                         3.      Verify that significant violators reported in
                                 Arkansas’ monthly Enforcement Activities Reports
                                 are included in AFS as significant violators, when
                                 appropriate; and

                         4.      Resolve the issue of who will input the significant
                                 violator designation in AFS.




EPA RESPONSE      Region 6 concurred with the findings and recommendations.
                  Region 6 provided documentation of a June 26, 1997 response to
                  the Arkansas letter to Region 6 dated April 21, 1997. In Region 6's

                                11                Report No. E1GAF7-06-0014-7100295
                                                Region 6's Oversight of Arkansas
                                                           Air Enforcement Data

                 response, the Region responded that the “Day Zero” action has
                 been required as minimally reportable since fiscal 1995. Since
                 records concerning the identification and reporting of subsequent
                 activity of significant violators are minimally reportable data
                 elements, they therefore should be reported by the State.



OIG EVALUATION   We modified the “Miscommunication Prevented Significant
                 Violator Input Into AFS” section of our report to reflect Region 6's
                 response.




                               12               Report No. E1GAF7-06-0014-7100295
                                               Region 6's Oversight of Arkansas
                                                          Air Enforcement Data


                 CHAPTER 3
ENFORCEMENT ACTIONS AGAINST SIGNIFICANT VIOLATORS
               NEED IMPROVEMENT


                Arkansas and Region 6 need to take actions to ensure significant
                violators are returned to compliance timely. Arkansas did not take
                timely enforcement actions. Arkansas did not always set milestone
                dates for facilities to come into compliance and did not always set
                stipulated penalties. Region 6 did not elevate any enforcement
                actions. As a result, companies continued to violate permit limits
                by emitting pollutants such as volatile organic compounds,
                particulate matter, and methylene chloride.

                According to EPA's Five Year Strategic Plan (plan) dated July
                1994, EPA's mandate to protect public health and safety depends
                upon effective enforcement. EPA stated in the plan that:

                       Effective compliance and accountability are
                       cornerstones of environmental protection. Real
                       public health and safety, and a clean environment,
                       cannot be achieved without compliance with the
                       nation's environmental laws. Enforcement is a key
                       tool for producing compliance. It engenders
                       responsible behavior in the regulated community,
                       provides a level, competitive playing field, ensures
                       that goods and services reflect their true costs, and
                       establishes a baseline of integrity for EPA's
                       programs. Protection and enhancement of the
                       environment are dependent on public awareness and
                       accountability.

                EPA’s Timely and Appropriate Enforcement Response to
                Significant Air Pollution Violators (guidance) requires that by day
                150 a source be either resolved, addressed, or subject to a referral
                to the state’s Attorney General or the U.S. Department of Justice
                for an adjudicatory enforcement hearing or judicial action. The
                guidance defines resolved as in compliance and addressed as on a

                              13               Report No. E1GAF7-06-0014-7100295
                                                      Region 6's Oversight of Arkansas
                                                                 Air Enforcement Data

                      legally enforceable and expeditious administrative or judicial
                      order. Day 150 equals 180 days from the inspection date since day
                      zero (when the clock starts) is defined as 30 days after the
                      discovering agency first receives information concerning a
                      federally enforceable violation. If the state’s action is not timely,
                      EPA has the authority to take its own action.

                      The guidance further requires that all state enforcement actions
                      against significant violators assess civil penalties of sufficient
                      magnitude to maintain a credible deterrent effect, and that EPA
                      will consider overfiling when state penalties fail to meet the
                      criteria.



ARKANSAS NEEDED TO    Arkansas adequately addressed the violations of only 1 of 15
TAKE TIMELY           sampled significant violators within the 180 day timeframe
ENFORCEMENT           required by the guidance. The remaining 14 facilities were out of
ACTIONS               compliance an average of 940 days, as of May 2, 1997. Four of the
                      facilities were out of compliance in excess of 3 years. For
                      example, as discussed in Chapter 2, one facility added unpermitted
                      sources on several occasions over the past 3 years. Another facility
                      has been considered out of compliance with its permit since
                      February 23, 1994. This facility has continued to operate with
                      unpermitted sources and exceeded its permit limits. However, as
                      of the date of our review, Arkansas has not taken any enforcement
                      action for these violations.



ARKANSAS NEEDED TO    Consent administrative orders reviewed usually did not contain
SET MILESTONE DATES   compliance milestone dates and did not contain stipulated
AND STIPULATED        penalties, if the facility did not come into compliance. Without
PENALTIES             setting formal deadlines for compliance or submitting permit
                      modifications in the consent administrative order, Arkansas could
                      not ensure that facilities returned to compliance timely.

                      For example, one facility has been operating without a permit and
                      has continuously violated limits of an expired permit since 1991.
                      State files contained a consent administrative order dated


                                    14                Report No. E1GAF7-06-0014-7100295
                                                   Region 6's Oversight of Arkansas
                                                              Air Enforcement Data

                   November 1, 1994, for the facility for failure to certify its
                   Continuous Emission Monitoring and exceeding its volatile
                   organic compounds, carbon monoxide, and total sulfur emission
                   limits. The consent administrative order was based on an
                   inspection conducted in September 1991 and additional stack
                   testing performed in November 1991. The consent administrative
                   order required the facility to pay a fine of $40,000, which was paid
                   on December 12, 1994. However, the order did not contain any
                   milestone dates to ensure that the facility returned to compliance
                   and did not contain stipulated penalties if those milestone dates
                   were not met. An inspection conducted on August 7, 1996,
                   disclosed that the facility was still out of compliance for exceeding
                   permit limits for volatile organic compounds, carbon monoxide,
                   and total sulfur. According to the inspection report, the facility had
                   been out of compliance for 3 years and will continue to be until a
                   PSD permit is issued. As of April 27, 1997, the PSD permit still
                   had not been issued.

                   In response to our position papers, Arkansas stated that all consent
                   administrative orders for significant violators will now contain
                   milestone dates and provisions for stipulated penalties in the event
                   that requirements of the orders are not met.



REGION 6 DID NOT   Despite the problems identified with the Arkansas enforcement
ELEVATE ANY        program, Region 6 did not elevate any enforcement actions for
ENFORCEMENT        Arkansas in fiscal 1996. Region 6 generally allowed states to run
ACTIONS            their own enforcement programs and therefore did not overfile or
                   take any other enforcement actions in Arkansas since 1994.
                   Region 6 did not monitor 12 of the 15 significant violators
                   reviewed as significant violators because of the identification and
                   reporting problems identified in Chapter 2 of this report. Also, as
                   discussed in Chapter 2, some of these facilities violated the CAA
                   for years without the State or EPA taking strong enforcement
                   action. The 10 facilities that we identified included facilities that
                   repeatedly constructed and operated unpermitted equipment that
                   emitted pollution, repeatedly exceeded permit limits, operated
                   without a PSD permit, violated a State Administrative Order, failed



                                 15                Report No. E1GAF7-06-0014-7100295
                                Region 6's Oversight of Arkansas
                                           Air Enforcement Data

stack tests, failed to install control equipment, and repeatedly failed
to control fugitive emissions.

Region 6's most recent Enforcement Activities Report for Arkansas
indicated that it was aware that 3 of the 15 facilities reviewed were
significant violators. These three facilities have been classified as
significant violators since 1993 on the Enforcement Activities-
Arkansas list maintained by Region 6 enforcement. However, two
of these facilities remain in noncompliance and unresolved.
According to Arkansas, the violations for the third facility were
resolved in March 1997. All three facilities were operating without
a PSD permit. Region 6 had not taken its own actions against any
of these facilities.

For example, a review of enforcement data identified one facility
which failed a stack test in May 1992. At the time, the facility
notified Arkansas that the facility may need to apply for a PSD
permit. In response, Arkansas issued a consent administrative
order requiring the facility to submit a PSD air permit application
not later than March 1, 1994, and assessed a penalty of $60,000.
The facility failed to satisfy the consent administrative order
resulting in Arkansas filing a complaint and requesting a
permanent injunction and reduction of particulate emissions. In
exchange for dropping the complaint, the facility agreed to a
second consent administrative order dated June 7, 1995. This
order required the facility to obtain a PSD permit, establish a
compliance schedule, and set stipulated penalties. The facility
filed a PSD permit application on November 30, 1995, which is
still under review. On September 20, 1995, the facility lost a
citizen suit with a penalty of $226,250. The facility was found
negligent for releasing nitrous oxide, carbon monoxide, and other
volatile organic compounds into the air. However, this decision
was reversed. Residents living near the facility filed at least three
other lawsuits. Further, we found that the facility, as of March 10,
1997, was still considered out of compliance by Arkansas.

Another facility entered into a consent administrative order dated
June 21, 1991, for violation of emission limits between January 1,
1991, and March 31, 1991. The facility is considered a major
stationary source under PSD regulations for particulates, sulfur


              16                Report No. E1GAF7-06-0014-7100295
                               Region 6's Oversight of Arkansas
                                          Air Enforcement Data

dioxide, nitrogen oxides, carbon monoxide, and volatile organic
compounds. The facility agreed to submit a plan of action to
comply with emission limits no later than June 10, 1991.
Additionally, the facility was required to pay $3,000 as a voluntary
civil penalty. The order expired October 1, 1991, and during the
interim of June 3, 1991, to October 1, 1991, Arkansas waived
penalties for noncompliance. Arkansas issued a second consent
administrative order on September 30, 1991, because the facility
failed to comply with the previous consent administrative order
milestone date. To resolve the alleged violations, the facility was
required to submit a complete PSD permit application no later than
January 1, 1992. The facility was fined $14,000 as a voluntary
assessment. A routine inspection conducted June 24, 1994,
disclosed that the facility was out of compliance pending issuance
of a PSD permit. Enforcement files reviewed at both the State and
the Region verified that the facility had been out of compliance
since 1991. In response to our position papers, Region 6 and
Arkansas responded that a PSD permit was issued in fiscal 1997,
and the facility was subsequently found to be in compliance during
a March 1997 inspection. Fines of $3,000, $14,000, and $5,000
were levied on the facility, but it continued to operate out of
compliance until March 1997.

In response to the position paper, Region 6 enforcement agreed that
significant violators need to be addressed and resolved in a timely
manner. However, three of the significant violators that were
reviewed by OIG required the issuance of a PSD permit in order to
be considered “resolved.” This type of permit generally takes more
than 150 days from receipt of a “complete” permit application to
final issuance of an enforceable permit.

In response to our position paper, Arkansas agreed that it did not
always take timely enforcement actions and will implement the
following corrective actions:

       1.      Upon identification of a significant violator,
               Arkansas will immediately begin enforcement
               action.




              17               Report No. E1GAF7-06-0014-7100295
                                                  Region 6's Oversight of Arkansas
                                                             Air Enforcement Data

                         2.      All consent administrative orders will now contain
                                 milestone dates for compliance.

                         3.      All air inspectors and air inspector supervisors have
                                 been provided a copy of the criteria for defining a
                                 significant violator as outlined in the guidance. Air
                                 inspectors have been instructed to submit a
                                 memorandum to their supervisor each time they
                                 believe they have identified a significant violator.
                                 Inspector supervisors have been instructed to review
                                 every inspection report so that all significant
                                 violators are identified and referred for enforcement
                                 action.

                         4.      All consent administrative orders for significant
                                 violators now contain provisions for stipulated
                                 penalties in the event that requirements of the orders
                                 are not met.



CONCLUSION        Region 6 and Arkansas have not addressed or resolved significant
                  violations timely. Significant violations have remained unresolved
                  an average 940 days.



RECOMMENDATIONS   We recommend that the Acting Region 6 Administrator require
                  Region 6 enforcement to perform more effective oversight of
                  significant violators to ensure that Arkansas takes timely and
                  appropriate actions that result in facilities returning to compliance
                  timely by :

                         1.      Ensuring that Arkansas implements its proposed
                                 corrective actions outlined in its response to our
                                 position papers and Region 6's response to our draft
                                 report, and

                         2.      Taking its own enforcement action when Arkansas
                                 does not take timely enforcement action and


                                18                Report No. E1GAF7-06-0014-7100295
                                                Region 6's Oversight of Arkansas
                                                           Air Enforcement Data

                                considering overfiling when the State action does
                                not result in timely resolution of the violations.



EPA RESPONSE     Region 6 concurred with our findings and recommendations but
                 provided comments related to the second sentence of our
                 Conclusion section. Region 6 responded that the number of days
                 that significant violations have remained unresolved (“an average
                 of 940 days”) is based upon inaccurate data entry into AFS (i.e.,
                 incorrect day zero dates, failure to include the date that violations
                 were “addressed,” incorrect “addressed” date, etc.). Region 6 also
                 responded that Guidance on the Timely and Appropriate
                 Enforcement Response to Significant Air Pollution Violators does
                 not require a company to be returned to compliance within 180
                 days but states that the source shall either be in compliance
                 (resolved) or addressed (on a legally-enforceable and expeditious
                 administrative or judicial order, or be subject to a referral to the
                 (State) attorney general or (Federal) Department of Justice for an
                 adjudicatory enforcement hearing or judicial action). Region 6
                 also responded that at least three of the significant violators
                 required a PSD permit, which generally takes more than 150 days
                 from receipt of a “complete” permit application to final issuance of
                 an enforceable permit.



OIG EVALUATION   We based our computed average days on actual file documentation,
                 not AFS. Further, we discussed in the first sentence of our
                 conclusion that Region 6 and Arkansas have not addressed or
                 resolved significant violators timely (emphasis added). While the
                 guidance does not specifically require that facilities be returned to
                 compliance within 180 days, we believe that 2 or 3 years is
                 excessive. The guidance does allow for some flexibility related to
                 PSD issues; however, the three facilities that operated without PSD
                 permits have been considered significant violators since 1993.
                 The State should be able to bring facilities into compliance within
                 a more reasonable timeframe.




                               19               Report No. E1GAF7-06-0014-7100295
                           Region 6's Oversight of Arkansas
                                      Air Enforcement Data




THIS PAGE INTENTIONALLY LEFT BLANK.




                20         Report No. E1GAF7-06-0014-7100295
     APPENDIX 1 - EPA RESPONSE




21   Report No. E1GAF7-06-0014-7100295
                                                                  APPENDIX 1 - EPA RESPONSE


Region 6's Comments on the OIG Draft Audit Report No. E1GAF7-06-0014-XXXXXXX,
dated August 9, 1997

Summary of Finding/Recommendations

             Area                                        Remark

1.    Executive Summary

             A. Results in Brief                         Concur

             B. Recommendations                          Concur

2.    Chapter 1 - Introduction

             A. Purpose                                  Concur

             B. Background                               Concur

             C. Scope and Methodology                    Concur

             D. Prior Audit Coverage                     Concur

3.    Chapter 2 - Arkansas and the Region Could
      Better Identify and Report Significant Violators

             A. Arkansas Maintained an Extensive
                Inspection Program                       Concur

             B. Arkansas Did Not Accurately Apply
                The Definition of Significant
                Violators                                Concur

             C. Region 6 Enforcement Did Not
                Adequately Use Provided Information      Concur

             D. Miscommunications Prevented              Concur with comments
                Significant Violators Input Into AFS     (See below)

             E. Conclusion                               Concur


                                                  22              Report No. E1GAF7-06-0014-7100295
                                                             APPENDIX 1 - EPA RESPONSE


            F. Recommendations                      Concur

4.   Chapter 3 - Enforcement Actions Against
     Significant Violators Need Improvement

            A. Arkansas Needed to Take Timely
               Enforcement Actions                  Concur

            B. Arkansas Needed to Set Milestone
               Dates and Stipulated Penalties       Concur

            C. Region 6 Did Not Elevate Any         Concur with comments
               Enforcement Actions                  (See below)

            D. Conclusion                           Concur with comments
                                                    (See below)

            E. Recommendations                               Concur




                                               23            Report No. E1GAF7-06-0014-7100295
                                                                     APPENDIX 1 - EPA RESPONSE


Comments on Specific Sections of the IG Draft Report
1.  Chapter 2 - Section entitled “Miscommunications Prevented Significant Violators Input into
    AFS”, 2nd paragraph

              “Region 6 officials are currently in the process of drafting a response to Arkansas’ letter.”

              This statement is no longer accurate. Region 6 sent a response to Keith Michaels of the
              ADPC&E on June 26, 1997, a copy of which is attached.

              In the April 21, 1997 letter, ADPC&E stated that they did not have access to the “day
              zero” field. However, in the June 26, 1997, response letter, Region 6 makes the statement
              that “The ‘Day Zero’ action has been required as minimally reportable since FY95.”

              ADPC&E also requested a clarification of who will have the responsibility to flag
              significant violators in AFS and requested that Region 6 flag the significant violators. In
              response, Region 6 stated the following: “Records concerning the identification and
              reporting of subsequent activity of SV’s are minimally reportable data elements and
              therefore should be reported by the State.” (emphasis added)

2. Chapter 2: Arkansas and the Region Could Better Identify and Report Significant Violators:

              We believe that the reporting weaknesses outlined in Chapter 2 (data not adequately
              reflected in the Aerometric Information Retrieval System (AIRS) Facility Subsystem
              (AFS), confusion of data entry responsibilities) are symptomatic of problems with the
              interpretation of the definition of “Significant Violator” (SV). The reporting accuracy of
              the AFS has never been emphasized due to the reliance of manual activity reports
              submitted by the State to the Environmental Protection Agency (EPA).

              As noted on page 9 of the OIG report, the State was confused about its ability to report
              SV information in AIRS. The EPA responded to the April 21, 1997, letter clarifying its
              reporting options. This June 26, 1997, response is attached.
              In our efforts to improve data quality, the Multimedia Planning and Permitting Division
              (6PD) has instituted the policy “if it’s not in AIRS, it doesn’t count.” Our Memorandum
              of Understanding (MOU) with the Compliance Assurance and Enforcement Division
              further enforces that policy across the Divisions in Region 6. The procedures in the
              MOU will continue toward the goal of timely and accurate reporting of significant
              violator activities. The proposed actions by the Enforcement Division, however, will
              resolve the real issue of determination of “Significant Violator”.

4.     Chapter 3 - Section entitled “Conclusion”


                                                   24                Report No. E1GAF7-06-0014-7100295
                                                                       APPENDIX 1 - EPA RESPONSE


              “Significant violations have remained unresolved an average 940 days, which far
              exceeds the 180 day time frame required by the policy to help return companies to
              compliance.”

                      This statement is incorrect in two major ways. First of all, the number of days
                      that significant violations have remained unresolved (“an average of 940 days”) is
                      based upon inaccurate data entry into AFS (i.e., incorrect day zero dates, failure to
                      include date that violations were “addressed” or incorrect “addressed” date, etc.).

                      Second, the “Guidance on the Timely and Appropriate Enforcement Response to
                      Significant Air Pollution Violators” does not require a company to be returned to
                      compliance within 180 days. It states that “By Day 150 (or 190 with lead
                      change), the source shall either be in compliance (RESOLVED) or
                      ADDRESSED i.e.,. on a legally-enforceable and expeditious administrative or
                      judicial order, or be subject to a referral to the (State) attorney general or (Federal)
                      Department of Justice for an adjudicatory enforcement hearing or judicial action.”
                      (emphasis added).

                      Furthermore, in the case where a prevention of significant deterioration of air
                      quality (PSD) permit is required for a facility, the guidance states that “All SVs,
                      except emergency episodes and sources which construct without a valid PSD
                      or Part D permit (where one is required), are subject to the following timelines
                      and penalty requirements.” (emphasis added). At least 3 of the significant
                      violators required a PSD permit, which generally takes more than 150 days from
                      receipt of a “complete” permit application to final issuance of an enforceable
                      permit.

4.     As a general comment, it was noted that some of the language in the Executive Summary and
       Introduction sections of the Arkansas audit resembles that found in the Pennsylvania audit.
       While the information on “air toxins” may be particularly appropriate for the industrial makeup
       in Pennsylvania, it may not be completely accurate and appropriate for Arkansas. Of the
       facilities that were audited in Arkansas, only one of the 10 additional significant violators even
       emitted a “hazardous air pollutant”, as defined in the Clean Air Act.


Corrective actions to be taken in response to the IG Audit

ADPC&E has proposed the following changes to their enforcement policy regarding Significant
Violators:



                                                    25                 Report No. E1GAF7-06-0014-7100295
                                                                      APPENDIX 1 - EPA RESPONSE


       -      There will now be a three-tiered review of all violations discovered during an inspection
              to determine SV status (i.e., Inspector receives copy of definition of a SV and writes a
              memo to Supervisor if a SV is suspected during inspection; Supervisor reviews every
              inspection report for SV determination, even if inspector did not note facility as a
              possible SV; enforcement personnel will also review all reported violations in order to
              promptly and correctly identify SVs.

       -      Within 45 days after a facility is designated as a SV, ADPC&E will issue a written SV
              notice to the facility, informing them of the violation and directing that corrective action
              be taken. Copies of such letters will be sent to Region 6 Air Enforcement.

       -      A formal transmittal memo from ADPC&E Air Enforcement to the AIRS Data Manager
              has been created and will contain all of the information needed to update AIRS
              concerning an enforcement case and SV status.

       -       ADPC&E will continue to send monthly enforcement reports regarding all out-of-
              compliance sources, including all facilities believed to be SVs, to Region 6 and will
              continue to hold monthly SV conference calls. Both ADPC&E and Region 6 Air
              Enforcement personnel and AIRS Data Managers will be present at the conference calls.

       -      All ADPC&E Consent Administrative Orders for SVs will now contain milestone dates
              for compliance and provisions for stipulated penalties.

EPA Region 6 proposes to take the following actions regarding Significant Violators:

       -      Continue to implement the MOU dated January 29, 1997, between 6PD and 6EN.

       -      Assist ADPC&E with SV determination and verify that SV data is accurately reflected in
              AIRS.

       -      Ensure through effective oversight that ADPC&E takes timely and appropriate
              enforcement actions regarding SVs and consider taking a federal enforcement action in
              the instance where ADPC&E’s action does not follow the prescribed guidance.




                                                   26                Report No. E1GAF7-06-0014-7100295
     APPENDIX 2 - ARKANSAS RESPONSE




27        Report No. E1GAF7-06-0014-7100295
     APPENDIX 2 - ARKANSAS RESPONSE




28        Report No. E1GAF7-06-0014-7100295
                                                              APPENDIX 2 - ARKANSAS RESPONSE




                  ARKANSAS’ RESPONSE TO DRAFT REPORT
           ISSUED BY THE U.S.E.P.A. OFFICE OF INSPECTOR GENERAL

A. Introduction.

       As reflected in Arkansas’ past comments and the EPA Office of Inspector General’s (OIG’s)

latest Draft Report, the Arkansas Department of Pollution Control & Ecology (ADPC&E) immediately

implemented in-house procedures to address EPA Headquarters’ recent concern about this agency’s use

of the “Timely and Appropriate Enforcement Response to Significant Air Pollution Violators” Guidance

(T&A/SV Guidance). Remembering the Pennsylvania experience, ADPC&E hoped that cooperation

would be matched by an appropriate degree of comity from the OIG. The Final Draft on which we

comment today, however, continues to relay a deliberate tone designed to humiliate rather than improve

this agency’s air enforcement program.

       For years, ADPC&E has maintained a generally amicable relationship with the oversight officials

of EPA Region 6 in its air programs as well as all other major environmental programs. In fact,

Arkansas has been authorized or delegated more responsibility for more federal regulatory programs

than any other State in Region 6. For a relatively small agency, ADPC&E juggles numerous multi-

media expectations from EPA, a problematic task in the 1990's as EPA Headquarters sends mixed

signals concerning its dedication to efficient and flexible regulation.

       In order for meaningful cooperative federalism to work, the dialogue between state and national

officials must be candid, mutually respectful, and (most importantly in this context) consistent. As the


                                                     29                   Report No. E1GAF7-06-0014-7100295
                                                             APPENDIX 2 - ARKANSAS RESPONSE


OIG previously noted in a 1996 audit, Region 6 had not made reporting to the AFS data base a consistent

priority in its oversight of state programs. See Region 6's Enforcement and Compliance Assurance

Program at 14-17. While the focus of that Report was Region 6's oversight of air enforcement in

Louisiana and Texas, obviously the same low priority on AFS reporting would apply to other Region 6

states as well. Rather than following through with recommendations from that Report, however, OIG

launched an independent audit of Arkansas’ program, knowing already that consistent AFS reporting

was not demanded of Region 6 States. And in a disturbing rerun of the Pennsylvania experience, OIG

chose to extend its report beyond the stated scope of its audit into one paragraph synopses of specific

cases, ignoring the considerations that any environmental enforcement agency must contend with in

allocating its limited resources.

       Apparently, OIG rejects ADPC&E’s effort to resolve the narrow issues raised by this audit

reasonably and constructively, and prefers to issue a Report that is unnecessarily inflammatory, based

upon a controversial and apparently unworkable policy, and totally antithetical to any attempt to advance

cooperative federalism between EPA and the State of Arkansas. Rather than make a defense at the

expense of our partners at Region 6, ADPC&E charges OIG and EPA Headquarters with promoting an

arcane accounting procedure as the bureaucratic litmus test of a State’s commitment to its own

environmental integrity.

       B. The OIG Report Is Unnecessarily Inflammatory.

               1. Irrelevant Introductory Language.




                                                    30               Report No. E1GAF7-06-0014-7100295
                                                             APPENDIX 2 - ARKANSAS RESPONSE


       Both the Executive Summary and the Introduction of the OIG Draft Report begin with alarming

statistics describing the worst-case consequences of air pollution, including threats of 3,000 cancer

deaths and brain damaged children. This language is lifted virtually verbatim from the controversial

audit report on the Pennsylvania program (Validation of Air Enforcement Data Reported to EPA by

Pennsylvania, Report No. 7100115)(hereafter “Pennsylvania Report”). When identical or even broader

issues are discussed in reports on the enforcement performance of EPA Offices, OIG does not use such

sensationalistic prose. Cf. Region 6's Enforcement and Compliance Assurance Program (hereafter

“Region 6 Report”) at 1-2 (“Background”); Region 5's Air Enforcement and Compliance

Assistance Program (hereafter Region 5 Report) at 1-3 (“Background”).

       Apparently, OIG is using the Pennsylvania Report as the word-processor template for audit

reports on States, and reserving its more judicious introductory sections for reports on EPA’s own

activities. Since the controversy of the Pennsylvania Report is so notorious, OIG’s “cut-and-paste”

strategy in this Draft Report must be designed to achieve the same unwarranted reaction for Arkansas’

environmental programs.

       The fact is, OIG did not come to Arkansas to audit cancer deaths, brain-damaged children, or

even air pollution. The stated purpose and actual scope of the audit was to discern whether ADPC&E

identified and reported “significant violators” to EPA in accordance with a widely disputed policy, and

whether ADPC&E performed adequate inspections. Only the last of these inquiries (inspections) is

directly tied to discovering the effect of point source air emissions on public health and the environment.

In contrast, identifying and reporting “significant violators” is described by OIG as a contract obligation,



                                                     31               Report No. E1GAF7-06-0014-7100295
                                                              APPENDIX 2 - ARKANSAS RESPONSE


an accounting task tied more to the receipt of federal grant funds than discovering harmful air emissions.

See Pennsylvania Report at Chapter 2, pg.10.

        The purpose and the content of this Draft Report do not support the inflammatory nature of its

introductory paragraphs. This language should be deleted in its entirety. At the very least, we ask that

the initial paragraph in the Executive Summary and Introduction of the Draft Report be moved under the

heading “Background” consistent with the other audit reports issued by OIG on similar issues.

                  2. The Section 105 Grant.

                  The Inspector General’s draft report states that in fiscal 1996, the EPA awarded Arkansas

an $821,645 grant pursuant to Section 105 of the Clean Air Act, and justifies EPA’s demands on

Arkansas’ enforcement program based upon this grant amount. A breakdown of this grant money,

however, reveals that most of it passed through the Air Division to other state agencies or Department

branches. Only approximately $250,000 was actually for use by the Air Division. The annual budget of

the Air Division is approximately 3.2 million dollars. Thus, the federal government’s actual monetary

contribution to Arkansas’ air enforcement program is quite small. The final report should reflect this

fiscal reality.

                  3. ADPC&E’s Inspection Program.

        The OIG’s Draft Report states

                  Arkansas’ inspection program provided more coverage of major sources than
                  most other states. Arkansas conducted detailed inspections of each major facility
                  at least once each year to ensure that it met federal and state regulations.
                  Arkansas also performed complaint inspections, as needed. Most states did not
                  inspect each major facility each year. Arkansas’ annual inspections met the
                  EPA’s definition of Level 2 inspections, and the inspection reports were well


                                                      32               Report No. E1GAF7-06-0014-7100295
                                                             APPENDIX 2 - ARKANSAS RESPONSE


               documented. Arkansas’ inspections provided support for enforcement actions and
               were a viable method for determining whether a facility was violating the CAA.

Ironically, OIG uses the fruits of this inspection program as the evidence for damning Arkansas’

enforcement program.

       The OIG audit focused on 23 facilities, following the regulatory history of these facilities back

to, in some cases, 1991. From 1991 through the end of fiscal year 1996, ADPC&E performed

approximately 6,624 inspections of permitted facilities. These facilities each have one to more than one

hundred sources. Even a conservative average of twenty-five sources per facility would indicate that

Arkansas inspected 165,600 permitted sources of pollution during the referenced time period. In most

cases, the facilities reviewed by OIG had violations at a single source, indicating that OIG reviewed only

0.0001389% of the sources of pollution inspected by Arkansas since 1991. ADPC&E performs a similar

level of inspection and complaint response concerning its state law mandates, which are vastly more

inclusive than the single federal guidance document that is the subject of the OIG audit. The sheer

volume of thorough inspections performed in Arkansas creates the context for judging ADPC&E’s

enforcement response, which OIG claims to be inadequate. Consider then that the most pressing and

resource-intensive air pollution issues facing this agency during the period audited fell outside federal

jurisdiction. And through inspections procedures that were admitted by OIG to be more than adequate,

ADPC&E identified violations that existed at major sources falling within federal jurisdiction through

monthly reports and other informal communications. These routine communications with Region 6,

which ADPC&E assumed were the essence of EPA/State partnership, are now used by OIG as evidence

for indicting this State’s commitment to environmental protection.


                                                    33                Report No. E1GAF7-06-0014-7100295
                                                             APPENDIX 2 - ARKANSAS RESPONSE


       4. ADPC&E’s Authorization to Enter AFS Data.

       The most galling example of OIG’s selective attention to detail is its handling of information

proving that ADPC&E did not have authority to directly enter SV information into the AFS data base

until after the OIG audit was initiated. During the course of the audit, ADPC&E provided OIG with a

copy of the March 3, 1997 letter from Region 6 granting ADPC&E the authority to input a significant

violator flag into AFS effective March 24, 1997. Given the audit’s stated purpose -- to determine

whether ADPC&E identified and reported significant violators to EPA -- one would think that this

documented evidence would be the linchpin of any report issued by OIG.

       Instead, OIG discounts this hard evidence with a back-hand remark: “Arkansas officials claimed

that they did not have the capability to input a significant violator flag into AFS until March 24, 1997.”

Draft Report at 9 (Emphasis added). Thus, OIG discounts what really happened regarding ADPC&E’s

implementation of the T&A/SV Guidance in favor of a statement insinuating the possibility of

misrepresentation or unsubstantiated claims on ADPC&E’s part.

       This documented fact is clear and crucial. ADPC&E did more than “claim” that it did not have

the ability to enter data to the AFS; we provided direct proof of this fact in EPA’s own words. It is

incomprehensible why OIG chooses to ignore this dispositive fact.

               5. Timely and Appropriate Enforcement.

      If the scope of this audit had remained true to its stated purpose, Chapter 3 of the Draft Report

would not have been included. OIG’s previous findings had already revealed a foregone conclusion:

ADPC&E, like several other state agencies, was not consistently following the T&A/SV Guidance as it



                                                    34                Report No. E1GAF7-06-0014-7100295
                                                             APPENDIX 2 - ARKANSAS RESPONSE


applied to major sources in Arkansas.1 Procedures addressing this deficiency were being established

before the auditors left Arkansas.

       Despite ADPC&E’s efforts to cooperate, however, OIG embarks on cursory analysis of particular

enforcement cases which leaves the impression that Arkansas’ enforcement mechanism is unresponsive.

The Draft Report purports to summarize more than six years of enforcement experiences in five pages of

selected case narratives. ADPC&E objects to OIG’s misleading and demoralizing history of Arkansas’

enforcement efforts.

        Certain issues raised by OIG can only be described as a prefabricated conclusion in search of a

program deficiency. For instance, the Draft Report faults ADPC&E’s enforcement program for not

setting out milestone compliance dates and stipulated penalties in administrative orders, but fails to note

refinements in administrative practice that preceded the OIG audit. Since mid-1996, well before the

audit, all Consent Administrative Orders contain milestones for compliance, as well as stipulated

penalties, as a boilerplate condition which will be deleted only upon a showing that it is inapplicable.2


           1
           OIG audits from the last two years indicate widespread disregard of the T&A/SV
   Guidance by the States. See Pennsylvania Report; Region 6 Report at 15; Region 5 Report at
   Chapter 6; EPA Region 2 Review of the New York State Department of Environmental
   Conservation Program Relating to Significant Violators at 6.

           2
             Compliance schedules and stipulated penalties for delay are not always appropriate in
   enforcement orders. All ADPC&E Consent Orders contain a condition that the Order only
   applies to the specific violations addressed in the Findings of Fact. This condition assures that a
   particular Order will not foreclose enforcement action for environmental obligations discovered
   independent of the circumstances that prompted that Order. Case in point: A facility noted in the
   Draft Report at page 7 was the subject of a Consent Order assessing a penalty for construction of
   a source without a permit. The 1994 Consent Order assessed a penalty, but did not apply a
   compliance schedule or impose stipulated penalties for failure to comply, nor should it have. The

                                                    35                Report No. E1GAF7-06-0014-7100295
                                                           APPENDIX 2 - ARKANSAS RESPONSE


       Similarly, OIG’s recital of various examples of timeliness problems is based upon a false

premise. The report states, “Arkansas addressed the violations of only 1 of 15 sampled significant

violators within the 180-day time frame required by the policy. The remaining 14 facilities were out of

compliance an average of 940 days, as of May 2, 1997. Four of the facilities were out of compliance in

excess of three years.3” The T&A/SV Guidance, however, does not set out time lines for compliance.

The minimum requirement in the Guidance is that violations are addressed within 180 days. Arkansas

did take action on each violation within the 180-day time frame, but not always in a way that met the

Guidance definition of “addressed.” The timeliness of “compliance” is not, however, a fair or accurate

measure of Arkansas’ compliance with the Guidance or the success of its enforcement program.

       Like other States, ADPC&E’s adherence to the narrow enforcement options recognized by the

T&A/SV Guidance is often affected by definition issues that stem from disagreement over what

violations are actually “significant.” Under the Guidance, a major source that violates any monitoring



   1994 Order acknowledged that the facility had already submitted the required application for the
   unpermitted source. In contrast, the same facility was issued an Order in 1996 for failure to
   conduct a scheduled stack test. The facility was fined, a stack test was scheduled for a date
   certain, and a stipulated penalty clause for failure to comply was included.



           3
            Contrast OIG comments on failure to take timely enforcement concerning Arkansas
   with how similar circumstances were reported about Michigan and Illinois. The Arkansas Draft
   Report implies that agency inertia was the reason for up to three-year delays in compliance; a
   three-and-a-half year period for reaching compliance in a Michigan case was attributed to
   “Industry Delays.” See Region 5's Air Enforcement and Compliance Assistance Program at
   Chapter 5, pg.3.



                                                   36               Report No. E1GAF7-06-0014-7100295
                                                               APPENDIX 2 - ARKANSAS RESPONSE


or substantial procedural requirement would be classified a “significant violator,” regardless of the

emissions that caused its designation as a “major source” or the environmental impact of its emissions.

Consequently, a major source that failed to keep required records of hours of operation of an emergency

standby generator that operated only ten hours during a twelve month period would be a significant

violator. Similarly, if a facility is found during an inspection to be operating an unpermitted source, that

facility would be a significant violator even if the emissions and resulting environmental impact are

insignificant. In order to correct the matter, the facility would be required to submit an application to

modify its permit to include the source and its emissions at the same level of emissions that were emitted

without a permit. At that point, the matter is out of the facility’s hands; it can only wait for ADPC&E to

issue the modified permit. If manpower shortages, heavy workloads (at any one time 500 permit

applications may be pending), and prioritization procedures delay ADPC&E’s issuance of the permit for

up to two or three years, the facility in question is still required, according to the Guidance, to be carried

as a significant violator until the permit is issued, even if the facility submitted the required application

within thirty days of being notified of the problem. Therefore, while on its face the designation

“significant violator” seems to present a weighty environmental issue, this is not often the case.

      Judging from the experiences of Pennsylvania, New York, and Texas, ADPC&E sees no reason to

submit a case-by-case rebuttal of each of OIG’s one paragraph synopses. Suffice it to say that OIG’s

case analysis simply does not capture all of the competing considerations that must be weighed in any

enforcement response.4


           4
              OIG’s review of one complex case continues to be grossly misleading. The MDF
   facility referenced on page 16 of the Draft Report was indeed the subject of a hotly contested

                                                      37                Report No. E1GAF7-06-0014-7100295
                                                                                  APPENDIX 2 - ARKANSAS RESPONSE


     The actions or inactions of any enforcement agency, including EPA, are not easily captured with

glib second-guessing. In a case involving approval of the Texas SIP, EPA successfully argued to the

federal court of appeals that enforcement duties were inherently discretionary, subject to the agency’s

expert determination on “the significance of the alleged violation, the reliability or credibility of the

information received, or the most efficient allocation of the agency’s resources in carrying out its many

statutory duties.”5 These principles generally stem from a seminal U.S. Supreme Court decision

concerning enforcement discretion:

           [A]n agency decision not to enforce often involves a complicated balancing of a
           number of factors which are peculiarly within its expertise. Thus, the agency
           must not only assess whether a violation has occurred, but whether agency
           resources are best spent on this violation or another, whether the agency is likely
           to succeed if it acts, whether the particular enforcement action requested best fits
           the agency’s overall policies, and indeed, whether the agency has enough
           resources to undertake the action at all. An agency generally cannot act against
           each technical violation of the statute it is charged with enforcing.6




   question of whether PSD had been “triggered” on a particular production line. After extensive
   information requests, ADPC&E has now resolved the PSD issue in the company’s favor. The
   citizen suits have since been settled after reversal of one verdict in the Court of Appeals and
   summary judgment decisions in district court regarding two others. In all of these cases, the
   courts determined that the plaintiffs did not have sufficient evidence to prove negligence on the
   part of the company. Most important, in the last 2-3 years, this facility has been compelled to
   expend up to $20 million on pollution control measures, a process that is still on-going. Notably,
   emission reductions were achieved through efforts by ADPC&E that would not be recognized in
   the Guidance as an enforcement option.

           5
               City of Seabrook v. Costle, 659 F.2d 1371, 1374 (5th Cir. 1981).

           6
               Heckler v. Chaney, 470 U.S. 821, 831 (1985).


                                                                        38             Report No. E1GAF7-06-0014-7100295
                                                         APPENDIX 2 - ARKANSAS RESPONSE


          These same principles are applicable to State enforcement programs. With the benefit of

crystal clear hindsight and no concern about resource constraints, however, OIG charges

ADPC&E with inertia because it did not take action consistent with a preconceived enforcement

strategy. If such a charge were made in a context in which ADPC&E could mount a defense that

would be given a fair hearing, OIG’s indictment of ADPC&E’s enforcement program would be

dismissed out of hand. For these reasons, ADPC&E requests that Chapter 3 be deleted from the

Report.

C. The OIG Report Is Based Upon a Disputed and Unworkable Policy.

                 1. T&A/SV Guidance in the Real World.

          The “SV” designation, as well as properly reporting such to the EPA, is a bookkeeping

mechanism for tracking putatively noncompliant facilities that fall within the comparatively

narrow ambit of federal jurisdiction. On its face, the EPA’s T&A/SV Guidance provides

mechanisms and time lines for addressing violations at major sources and reporting these

violations to the EPA, providing EPA the option to initiate its own enforcement action if it

deems Arkansas’ response inadequate. In practice, strict application of the T&A/SV Guidance at

the State level would divert limited resources to inconsequential violations simply because they

fall within the ambit of a federal guidance document, and would force Regional attention away

from national initiatives in favor of relatively inconsequential or otherwise addressed matters. In

other words, compliance with the T&A/SV Guidance is not an accurate measure of overall




                                                 39               Report No. E1GAF7-06-0014-7100295
                                                          APPENDIX 2 - ARKANSAS RESPONSE


efficacy of a State’s enforcement program. At most, it is a measure of how rigidly bureaucratic

the regulatory dialogue between EPA and a State has become.

       When an inspection reveals noncompliance, ADPC&E seeks to address all violations,

federal or State, at all sources, and follows through as resources permit to assure that these

violations are corrected. As stated in our response to the initial position papers issued by the

Inspector General, we did not apply the disputed Significant Violator definition in our

enforcement program7. However, each violation was identified and reported to EPA Region 6 in

our monthly Enforcement Activities Report. OIG admits as much in its Draft Report, which

states that they selected their sample for the report from the “monthly Enforcement Activities

reports dated October 1, 1996, and March 10, 1997, provided by Arkansas.” Additionally, the

report states that, “case narratives in monthly reports usually provided enough information for

Region 6 enforcement officials to question whether additional facilities should be classified as

significant violators,” and, “because Region 6 enforcement did not make significant violator

reporting a priority, it did not verify whether Arkansas had identified all significant violators and

did not utilize information provided by the State concerning facilities’ noncompliance.” What

the Draft Report fails to note is that, often, ADPC&E charted its efforts to “address” a putative

“significant violator” only after consultation with its cohorts at Region 6.



       7
         Arkansas is not alone in its failure to adopt the federal data base as its primary tracking
mechanism for enforcement actions. Every OIG audit report on this issue notes that States have
developed their own tracking systems, mostly because the AFS system was deemed unwieldy as
a practical tool.


                                                 40                Report No. E1GAF7-06-0014-7100295
                                                           APPENDIX 2 - ARKANSAS RESPONSE


       ADPC&E does not seek to shift blame for its shortcomings to its partners at Region 6.

Instead, the point here is that ADPC&E was conducting extensive inspections of facilities within

its jurisdiction and was making extensive monthly reports to officials of Region 6. ADPC&E’s

contacts with Region 6 even included requests for advice or concurrence on how to proceed in

particularly complex enforcement matters. Region 6 and ADPC&E maintained a constant

dialogue on enforcement cases arising in Arkansas. The gist of this dialogue, however, was not

always entered into the AFS computer system. In fact, the real world circumstances of some

complex cases would thwart any effort to reduce the resolution or “addressing” of the matter to

the narrow contexts allowed in the AFS system. Still, Arkansas and Region 6 are now called to

task for failing to commit their already stressed resources to satisfy this relatively insignificant

data entry problem. The policy implications of this controversy are next discussed.

               2. EPA’s Recent Implementation of the T&A/SV Guidance.

       The February 7, 1992, Seitz and Van Heuvelen Memorandum transmitting the revised

T&A/SV Guidance to the Regions stated the promise of this new approach to oversight:

       “This guidance is being revised largely to encourage a greater degree of team-
       building and cooperative resolution of Significant Violators by all responsible
       agencies, to encourage agencies to give priority attention to those violators which
       they believe are most environmentally important, and to permit an increased
       degree of agency flexibility in identifying and resolving [SV’s].”

       These are goals that any governmental agency would embrace. But ADPC&E must agree

with her sister State agencies that EPA’s recent application of the revised guidance is antithetical

to achieving interagency cooperation, responsible prioritization, and common sense flexibility.



                                                  41                Report No. E1GAF7-06-0014-7100295
                                                          APPENDIX 2 - ARKANSAS RESPONSE


After five years’ experience with its implementation -- culminating with OIG’s recent use of this

policy to unjustly pummel state enforcement programs -- the States’ previous “buy-in” to this

policy is now irrelevant. Serious and widespread dispute between the States and EPA continues

over the definition of an SV. More specific to ADPC&E, the options provided for coding how

the bureaucratic clock is stopped by a violation being “addressed” simply don’t apply as a matter

of law or practice in Arkansas (e.g., ADPC&E rather than the Arkansas Attorney General has

primary jurisdiction to bring civil actions, and this State’s AG does not have criminal prosecution

authority.) Clearly, this guidance document should be fine-tuned to fit both generic and state-

specific concerns. Until recently, however, this agency sincerely believed that by choosing a

guidance document over a rigid command-and-control oversight regime, EPA valued case-

specific narratives between professionals over the superficial logic of computer software, and

substantive enforcement work over bureaucratic reporting requirements. At least, that is how

ADPC&E negotiated its federal grants and worked enforcement cases with Region 6 oversight

officials for years.

        In the OIG’s hands, however, the EPA Guidance document is now a rigid template that

leaves no room for human interaction. Given the tenor of this and the previous audit report, OIG

must be signaling that the flexibility implicit in regulatory guidance is gone, replaced by a

adversarial attitude toward oversight of State programs. Whatever new rules apply now,

ADPC&E had no notice that its regulatory program was so grossly out of sync with EPA’s

expectations until we received the first draft of the OIG’s Report.



                                                 42                Report No. E1GAF7-06-0014-7100295
                                                          APPENDIX 2 - ARKANSAS RESPONSE


     Most likely, OIG will insist, as it did in response to Pennsylvania’s objections, that the

T&A/SV Guidance Document is a contractual obligation tied to the receipt of federal grant

funds. If, however, this issue is to be understood in the terms of contracts, then it should be

noted that the law recognizes that habitual or customary practice (i.e., “usage”) and past course of

dealing between parties are established principles for judging the performance due under

contracts. See Restatement of Contracts 2d, §§219-221; 223; see also Restatement of Contracts

2d, §205. Here, the parties to the delegation “contract” have been Region 6 and ADPC&E, with

a working understanding of SV reporting requirements. It is EPA Headquarters, through OIG,

that has inserted an unfamiliar usage and course of dealing into the federal relationship with the

States. Thus, it is EPA’s unilateral change in how the T&A/SV Guidance is applied that is, to

use the language of contract, unconscionable.

       ADPC&E suggests that implementation of the T&A/SV Guidance is an issue best

addressed in the context of grant negotiations between the State and Region 6, not inflammatory

journalism by OIG. Furthermore, given recent developments, ADPC&E submits that this

controversial document is no longer regulatory guidance, but a snare for capturing and

humiliating States that have relied to their detriment on long-standing relationships with their

partners in EPA Regional Offices. If EPA Headquarters, through OIG, has decided after five

years to re-interpret this Guidance and institute an aggressive new implementation strategy, then

EPA is obliged to discuss these new expectations with the States before launching media events




                                                 43                Report No. E1GAF7-06-0014-7100295
                                                          APPENDIX 2 - ARKANSAS RESPONSE


disguised as audits. D. The OIG’s Approach to This Issue Violates the Basic Tenets of

Federalism.

       Federalism is “a commitment to partnership and active cooperation on the part of

individuals and institutions that also take pride in preserving their own respective integrities.”

The federal model is characterized by a spirit of negotiation, mutual forbearance and self-

restraint, and consideration of the consequences of actions.8 The EPA Guidance at issue in this

audit was meant to promote the same principles: partnerships, flexibility, and efficient

prioritization. The point of “guidance” as a regulatory tool -- as opposed to intractable

regulations or contract obligations -- is to allow the participants in its implementation some

latitude in reaching statutory goals with limited resources.

    These OIG audits, however, apply the Guidance in such a categorical and intractable manner

that the goals of the Guidance and the tenets of federalism are forgotten. The efficacy of State

environmental programs is being measured against strict compliance with the T&A/SV

Guidance, and most are found lacking. The States’ widespread disenchantment with the

Guidance is certainly evidence that it is not meeting its purported purpose and should be

revisited. Experience has shown, however, that issuance of EPA audit reports such as this draft

will lead to vivid generalizations in the press and feed ammunition to the opponents of regulatory

agencies.




       8
            D. Elazar, Exploring Federalism at 154 (Univ. Of Alabama 1987).

                                                 44                Report No. E1GAF7-06-0014-7100295
                                                          APPENDIX 2 - ARKANSAS RESPONSE


    EPA has now decided that strict compliance with the T&A/SV Guidance is a State reporting

requirement of the highest priority. Realigning the bureaucracy to meet EPA’s new expectations

can be accomplished without demeaning the integrity of State environmental programs. If EPA

is serious about partnerships with the States and its role in cooperative federalism, it will

abandon oversight by ambush as a way of communicating its new policies to the States.




                                          E. Conclusion.

       The T&A/SV Guidance is not an environmental indicator. It is not even a very efficient

tool for prioritizing environmental violations or tracking program compliance. At most, it is a

measure of how dutifully a State agency translates its real world observations into the constraints

of a computer software program.

       Now, in contrast to past local practice, EPA Headquarters demands strict adherence to the

Guidance as a high-profile program requirement. In Arkansas, that was accomplished before

OIG issued its first draft report. ADPC&E committed its resources to reviewing its enforcement

records once again in light of the Guidance criteria. And, for the first time since the adoption of

the policy, ADPC&E was given the authority to directly enter data into the AFS system in order

to satisfy the demands of the Guidance.




                                                 45                Report No. E1GAF7-06-0014-7100295
                                                        APPENDIX 2 - ARKANSAS RESPONSE


       State compliance with the Guidance is apparently not enough, however. Using the

controversial Pennsylvania Report as a form document, OIG is prepared to issue a factually-

slanted broadside criticizing ADPC&E’s enforcement program despite this agency’s good faith

attempt to satisfy EPA’s unexpected mandate. The Draft Report proceeds beyond the stated

purpose and scope of the audit and second-guesses this agency on individual enforcement matters

that range from the insignificant to the extraordinarily complex. Such an attack is unwarranted

and counterproductive to any constructive dialogue between the State and EPA.




                                               46               Report No. E1GAF7-06-0014-7100295
                                                     APPENDIX 3 - ABBREVIATIONS




                              ABBREVIATIONS


Arkansas      Arkansas Department of Pollution Control and Ecology

AFS           Aerometric Information Retrieval System Facility Subsystem

CAA           Clean Air Act

enforcement   Compliance Assurance and Enforcement Division

EPA           Environmental Protection Agency

guidance      Timely and Appropriate Enforcement Response to Significant Air
                Pollution Violators

MOU           Memorandum of Understanding

OIG           Office of Inspector General

permitting    Multimedia Planning and Permitting Division

plan          EPA’s Five Year Strategic Plan

PSD           Prevention of Significant Determination of Air Quality




                                      47               Report No. E1GAF7-06-0014-7100295
                                                              APPENDIX 4 - DISTRIBUTION




                                       DISTRIBUTION


Office of Inspector General

       Office of Inspector General (2410)
       Deputy Assistant Inspector General
        for Internal Audits (2421)
       Office of Inspector General - Divisional Offices


Regional Office

       Acting Assistant Regional Administrator for Management (6DRA-A)
       Director, Compliance Assurance and Enforcement Division (6EN)
       Director, Multimedia Planning and Permitting Division (6PD)
       Director, Office of External Affairs (6XA)
       Audit Resolution Coordinator, Region 6 (6MD-R)
       Regional Library (6MD-II)


State Offices

       Director, Department of Pollution Control and Ecology, State of Arkansas
       Deputy Director, Department of Pollution Control and Ecology, State of Arkansas


Headquarters Office

       Assistant Administrator for Enforcement and Compliance Assurance (2201A)
       Assistant Administrator for Air and Radiation (6101)
       Agency Audit Followup Coordinator (3304)
       Agency Audit Followup Official (2710)
       Assistant Administrator for Enforcement and Compliance Assurance (2201A)
       Associate Administrator for Congressional & Legislative Affairs (1301)
       Associate Administrator for Communications, Education & Public Affairs (1701)
       Associate Administrator for Regional Operations & State/Local Relations (1501)
       EPA Library (3404)


                                               48             Report No. E1GAF7-06-0014-7100295
